                                            HEALTH & HUMAN SERVICES                                         .Office of Inspector General

    "''''0 NOV 2 6 2008
(g-'''VICES"." DEPARTMENT OF
  o....yJ                                                                                                    Washington, D.C. 20201




                TO: Kerr Weems
                                 Acting Administrator
                                 Centers for Medicare & Medicaid Services


                FROM: Daniel R. Levinson                   /S/
                                 Inspector General


                SUBJECT: Early Alert Memorandum: Payments to Medicare Suppliers and Home Health
                           Agencies Associated With "Curently Not Collectible" Overpayments,
                                 OEI -06-07 -00080



                SUMMARY
                This early alert memorandum describes the associations between selected suppliers of durable
                medical equipment, prosthetics, orthotics, and supplies (DMEPOS) with debt owed to the
                Medicare program and other businesses that received Medicare payments.1 In 2005, DMEPOS
                suppliers collectively had $352 milion in debt deemed "curently not collectible" (CNC) by the
                Centers for Medicare & Medicaid Services (CMS). In 2006, the amount ofDMEPOS supplier
                debt deemed CNC rose to $402 milion. In addition, anecdotal information from the Offce of
                Inspector General (DIG) investigators and assistat United States attorneys indicates that
                DMEPOS suppliers with outstading Medicare debt may inappropriately receive Medicare
                payment by, among other means, operating businesses that are  publicly fronted by business
                associates, family members, or other individuals posing as owners. Information about the
                associations between DMEPOS suppliers with Medicare debt and other businesses that receive
                Medicare payment may be useful to CMS in its oversight of the program, to the extent that those
                associations are a means of avoiding debt repayment or engaging in fraudulent biling.

               We selected a random sample of 10 DMEPOS suppliers in Texas that each had Medicare debt of
               at least $50,000 deemed CNC by CMS durng 2005-2006. CMS deems a Medicare
               overpayment to be CNC if                    an overpayment to a DMEPOS supplier remains uncollected 210 days
               after the date of         the first demand letter despite recovery attempts by CMS contractors. We
               attempted to identify all owners and managers of these 10 DMEPOS suppliers with CNC debt.
               We then used information from public records, DMEPOS supplier and home health agency
               (HHA) enrollment applications, and Medicare claims to determine whether any of
                                                                                                             the sample
               DMEPOS suppliers were associated with other businesses that received Medicare payment
               during 2002-2007 through shared ownership or management, family relationship, address, or

                i DMEPOS suppliers are hereinafter referred to as "DMEPOS suppliers" or "suppliers."


               OEI-06-07-00080 Payments to Suppliers and HHs Associated With Overpayments
Page 2 – Kerry Weems


telephone number. Although we reviewed DMEPOS suppliers deemed to owe CNC debt in 2005
and 2006, analyzing Medicare payments from 2002 to 2007 allowed us to detect networks of
associated businesses that existed both before and after CMS deemed the sample DMEPOS
suppliers’ overpayments to be CNC.

We found that 6 of the 10 DMEPOS suppliers that we reviewed were associated with 15 other
DMEPOS suppliers or HHAs that received Medicare payments totaling $58 million during
2002–2007. Most associated DMEPOS suppliers had lost billing privileges by January 2005 and
had accumulated a total of $6.2 million of their own CNC debt to Medicare; however, most
HHAs received Medicare payments as recently as December 2007. We also found that most of
the DMEPOS suppliers we reviewed were connected with their associated DMEPOS suppliers
and HHAs through shared owners or managers. Finally, 11 of the 15 associated businesses’
enrollment applications did not include the name of at least one individual listed as an owner or a
manager in public records.

Although the associations among DMEPOS suppliers with CNC debt and their associates that
received Medicare payments are not, taken alone, sufficient to establish improper or illegal
activity, CMS may determine that such associations justify enhanced oversight, e.g., comparison
of ownership and management information provided by HHA providers and DME suppliers to
information in public records and following up on apparent inconsistencies. Because this initial
review examined a small number of DMEPOS suppliers and a limited set of issue questions, we
intend to conduct follow-up work regarding the issues and vulnerabilities raised in this
memorandum.

BACKGROUND

•   DMEPOS are covered under Medicare Part B and include such items as oxygen supplies,
    wheelchairs, prosthetic limbs, and surgical dressings. 2 3 Medicare covers DMEPOS only
    when ordered for a beneficiary by a physician or, in some cases, a nonphysician practitioner. 4
    CMS reported that Medicare expenditures for DMEPOS were $9.2 billion in fiscal year
    2006. 5 OIG later determined that a sizable percentage of these expenditures were
    inappropriate overpayments. 6 Overpayments are Medicare payments that a Medicare
    participating provider or supplier has received in excess of amounts due and payable. 7



2
  Social Security Act §§ 1832(a), 1834(h), 1861(n), 1861(s)(6), and 1861(s)(8).
3
  The complete list of covered items by Healthcare Common Procedure Coding System can be found online at
http://www.cms.hhs.gov/DMEPOSFeeSched/LSDMEPOSFEE/list.asp. Accessed on June 27, 2008.
4
  “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 5, § 5.2.
5
  Figure cited is for DMEPOS claims for the 12-month period ending September 30, 2006. Available online at
https://www.cms.hhs.gov/apps/er_report/preview_er_report_print.asp?from=public&which =long&reportID=6.
Accessed on July 2, 2008.
6
  An OIG study found in two separate reviews that DMEPOS overpayment errors in fiscal year 2006 were
17.3 percent and 28.9 percent. Department of Health and Human Services, OIG, “Medical Review of Claims for the
Fiscal Year 2006 Comprehensive Error Rate Testing Program” (A-01-07-00508), August 2008.
7
  “Medicare Financial Management Manual,” Pub. No. 100-06, ch. 3, § 10.

OEI-06-07-00080        Payments to Suppliers and HHAs Associated With Overpayments
Page 3 – Kerry Weems


Overpayments Deemed “Currently Not Collectible”
When a Medicare overpayment is made, CMS and its contractors make recovery attempts, which
involve contacting the DMEPOS supplier through a series of written demand letters and/or by
telephone. If the DMEPOS supplier fails to make any payment within 210 days of the first
demand letter, CMS classifies the debt as CNC. CMS then refers CNC debt to the Department of
the Treasury, which makes its own efforts to collect the overpayment. 8

Medicare Participation Requirements for Suppliers and Home Health Agencies
To participate in the Medicare program, all providers and suppliers must complete an enrollment
application and adhere to a series of requirements set forth in 42 CFR Part 424,
Subpart P; DMEPOS suppliers must adhere to additional requirements at 42 CFR § 424.57.
Pursuant to these requirements, all providers and suppliers must submit an enrollment
application to CMS, which is self-reported but must contain “complete, accurate, and truthful
responses to all information requested.” 9 Application forms for both DMEPOS suppliers and
HHAs require applicants to disclose the identity of any person or business that has an ownership,
financial, or controlling interest in the business, or that functions in a management role. 10 For
each person or business, applicants must also report adverse legal actions, including payment
suspensions, billing number revocation, or exclusion from a Federal or State health care
program. 11

The regulation specific to DMEPOS suppliers requires that a supplier repeat the application
process for each business location. (See Appendix A for a more detailed description of the
enrollment process.) Further, the regulation requires, among other things, that DMEPOS
suppliers certify that they meet, and will continue to meet, 25 standards specified by regulation;
report any changes in information on their enrollment application within 30 days of the change;
and renew their application every 3 years to continue submitting claims to Medicare. 12

Likewise, regulations applicable to HHAs (and all providers and suppliers) specify that they
must report not only any changes in information on their enrollment application within 90 days
of the change, but also changes in ownership or control within 30 days. 13 In addition, HHAs
must “resubmit and recertify the accuracy of its enrollment every 5 years,” and CMS may choose
to perform more frequent “off-cycle revalidations” to assess the validity of enrollment
information “when warranted.” 14

CMS may deny enrollment or revoke billing privileges for lack of compliance with enrollment
requirements or supplier participation standards. 15 Furthermore, in instances in which CMS
denies a provider or supplier enrollment, or revokes their Medicare billing number, Federal

8
  “Medicare Financial Management Manual,” Pub. No. 100-06, ch. 4, § 80.2.
9
  42 CFR § 424.510(d)(2)(i). See also 42 CFR § 424.57(c)(2).
10
   Sections 5 and 6 of Forms CMS-855S and CMS-855A.
11
   Sections 3 and 6 of Forms CMS-855S and CMS-855A.
12
   42 CFR § 424.57.
13
   42 CFR § 424.520(b). See also 42 CFR § 424.540(a)(2).
14
   42 CFR §§ 424.515 and 424.515(d).
15
   42 CFR §§ 424.530(a), 424.535(a), and 424.57(d).

OEI-06-07-00080        Payments to Suppliers and HHAs Associated With Overpayments
Page 4 – Kerry Weems


regulations stipulate that CMS “review . . . all other related Medicare enrollment files that the
denied provider or supplier has an association with (for example, as an owner or managing
employee) to determine whether the denial warrants an adverse action of the associated Medicare
provider or supplier.” 16

Recent Program Integrity Initiatives
CMS has recently implemented several additional safeguards to protect against improper
DMEPOS supplier enrollment, including additional quality standards, pursuant to
section 302(a)(1)(B) of the Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA) (P.L. No. 108-173). In addition, pursuant to section 1834(a)(16)(B) of the Social
Security Act, CMS issued a notice of proposed rulemaking, but has not issued the final rule, that
would require DMEPOS suppliers to submit a surety bond. 17 The surety bond requirement is
intended to limit the Medicare program risk to fraudulent DMEPOS suppliers, enhance the
Medicare enrollment process, and ensure that the Medicare program recoups erroneous payments
that result from fraudulent or abusive billing practices. Also, the MMA established a DMEPOS
competitive acquisition program but, implementation has been delayed until 2009 by recent
legislation. 18 Finally, CMS published a proposed rule that seeks to clarify several of the
DMEPOS supplier standards “to ensure that DMEPOS suppliers understand how CMS interprets
the DMEPOS supplier standards.” The rule proposes to add new standards which, among other
things, would prohibit a DMEPOS supplier from sharing a practice location with another
Medicare supplier. 19

METHODOLOGY

Scope
This study examines: (1) a small random sample of DMEPOS suppliers in Texas that had at least
$50,000 in Medicare overpayments deemed CNC by CMS during 2005–2006 and (2) other
DMEPOS suppliers and HHAs that received Medicare payments during 2002–2007 and were
associated with the sample DMEPOS suppliers.

Methods
We drew on multiple data sources, including the National Claims History Standard Analytical
File (SAF), DMEPOS supplier and HHA enrollment information, public records, enrollment data
from the National Supplier Clearinghouse (NSC) and the Online Survey and Certification and
Reporting system (OSCAR), CNC debt data from the Durable Medical Equipment Medicare
Administrative Contractors (DME MAC), and the Department of Health and Human Services
Fraud Investigations Database (FID). Our review took place from September to December 2007
and followed a multistep sequential process.



16
   42 CFR §§ 424.530(d) and 424.535(e).
17
   72 Fed. Reg. 42001 (Aug. 1, 2007).
18
   MMA § 302(b)(1) established the Competitive Bidding Program. Section 154 of the Medicare Improvements for
Patients and Providers Act of 2008 (P.L. No. 110-275), however, delayed further implementation.
19
   73 Fed. Reg. 4503 (Jan. 25, 2008).

OEI-06-07-00080        Payments to Suppliers and HHAs Associated With Overpayments
Page 5 – Kerry Weems


We randomly selected a sample of 10 DMEPOS suppliers in Texas that each had Medicare debt
of at least $50,000 deemed CNC during 2005–2006. We chose Texas because the database of
public records that we used (described below) contains more data for Texas than for many other
States. We chose a minimum debt of $50,000 to ensure that our analysis included DMEPOS
suppliers with debt of sufficient size. A total of 807 DMEPOS suppliers in Texas had debt
deemed CNC by CMS during 2005–2006, and 134 of these each had CNC debt of at least
$50,000. We randomly selected 10 of the 134 DMEPOS suppliers for review. Collectively,
these 10 DMEPOS sample suppliers received Medicare payments of $15 million during
2002–2007 and had $8.6 million in CNC debt. The Medicare billing numbers of 8 of the
10 DMEPOS sample suppliers were revoked in either 2003 or 2004. During 2005–2006, these
eight DMEPOS suppliers had a total of $6.7 million in CNC debt. The two remaining DMEPOS
suppliers we reviewed went into inactive billing status during 2000 and 2001 and had a total of
$1.8 million in debt deemed CNC during 2005–2006. 20

After selecting the sample of 10 DMEPOS suppliers, we obtained their Medicare enrollment
applications (Form CMS-855S) from the NSC and reviewed these applications to identify all
individuals and organizations that CMS requires to be reported on the application, including
those with the following ownership or managerial relationship with the sample DMEPOS
suppliers:

•    direct or indirect ownership totaling 5 percent or more;

•    partnership interest, regardless of the percentage of ownership; and

•    operational or managerial control of the DMEPOS supplier, or responsibilities to conduct the
     day-to-day operations of the DMEPOS supplier.

We then used a database that contains a variety of public records to corroborate and supplement
the ownership and managerial information identified on the enrollment applications.
Lexis/Nexis Accurint (hereafter referred to as “Accurint”) is a database available to law
enforcement agencies that culls a broad array of public records and consumer information to
facilitate in-depth searches for information on both businesses and individuals. For business
searches, Accurint draws from corporate filings, property information, phone listings,
professional licenses, and Securities and Exchange Commission filings, among other data. For
personal searches, Accurint contains information on Social Security numbers, driver’s licenses,
and professional licenses. Information on property assets and court proceedings is also available
for both individuals and businesses.

Using Accurint, we determined whether the individuals identified as owners or managers of the
10 sample DMEPOS suppliers were associated with any other DMEPOS suppliers or HHAs. We

20
  Although we did not review CMS’s overpayment collection process, the overpayments of eight DMEPOS
suppliers that we reviewed were not deemed CNC until 18 to 21 months after their billing number was revoked. The
other two DMEPOS suppliers we reviewed were inactive for about 5 and 6 years, respectively, prior to their
overpayments being deemed CNC.

OEI-06-07-00080         Payments to Suppliers and HHAs Associated With Overpayments
Page 6 – Kerry Weems


considered another DMEPOS supplier or HHA to be associated with a sample DMEPOS supplier
if it shared an owner or a manager or if it was owned or operated by a family member of an
owner/manager of the sample DMEPOS supplier. 21 We noted when sample DMEPOS suppliers
also shared telephone numbers and addresses. However, because of our conversations with OIG
investigators about the nature of DMEPOS fraud, we considered connections based on shared
telephone numbers and addresses to be of secondary importance to connections through shared
owners/managers and/or family. To uncover additional associations, we applied the same
analysis methods to the associated DMEPOS suppliers and HHAs and found businesses that
were indirectly associated with the sample DMEPOS suppliers.

Once we had identified DMEPOS suppliers and HHAs associated with owners/managers of the
sample DMEPOS suppliers, we used enrollment data from the NSC and OSCAR to identify
Medicare billing numbers. For those with a Medicare billing number, we calculated the amount
of Medicare payments that associated DMEPOS suppliers and HHAs received during 2002–2007
using data from the SAF. For DMEPOS suppliers, we also referenced the NSC enrollment data
to determine their enrollment status, i.e., active, inactive, or revoked.

We then reviewed the enrollment applications of the associated DMEPOS suppliers and HHAs to
determine whether their applications contained the same ownership and managing control
information as presented in Accurint. We also checked CNC debt data to determine whether the
associated DMEPOS suppliers had any CNC debt. Finally, we obtained information from the
FID to determine whether any of the associated businesses were under investigation.

Limitations
Because this study examines a random sample of 10 DMEPOS suppliers in Texas, its findings
cannot be projected beyond those DMEPOS suppliers. Although Accurint revealed a variety of
business associations, we limited our analysis of businesses associated with the sample
DMEPOS suppliers to those that were either DMEPOS suppliers or HHAs because of data
availability constraints.

Additionally, Accurint is a provider of third-party data from a variety of public sources, including
State civil, property, and criminal records. Verification of the information contained in Accurint
is beyond the scope of this review. Because of this limitation, the findings in this memorandum
should not be the basis of any action with respect to any DMEPOS supplier or HHA prior to
verifying that the information obtained from Accurint is correct.

Further, we had CNC debt data from the DME MACs for all DMEPOS suppliers in 2005–2006,
but did not have any CNC debt data for HHAs. Therefore, we could not determine whether
associated HHAs had any CNC debt. Lastly, we had enrollment status data for DMEPOS
suppliers, but not for HHAs. We used HHA claims themselves as a proxy for enrollment status,
i.e., if an HHA received Medicare payment as recently as 2007, we considered its status to be
“active.”


21
     Accurint identifies individuals who are likely to be relatives based on a proprietary algorithm.

OEI-06-07-00080             Payments to Suppliers and HHAs Associated With Overpayments
Page 7 – Kerry Weems


Standards
This study was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.

RESULTS

Six of Ten Suppliers Reviewed Were Associated With 15 Other Suppliers and Home Health
Agencies That Received Medicare Payments During 2002–2007
Based on data from public records, enrollment applications, and Medicare claims, we identified
instances in which owners or managers of 6 of the 10 sample DMEPOS suppliers were
associated with other DMEPOS suppliers or HHAs that received Medicare payments of
$58 million during 2002–2007. (See Table 1 on the next page.) Our review did not find
associations with DMEPOS suppliers or HHAs for the other four sample DMEPOS suppliers.
For the six sample DMEPOS suppliers that were associated with businesses that received
Medicare payment, we found a total of 15 associated businesses: eight DMEPOS suppliers and
seven HHAs.

The eight associated DMEPOS suppliers received Medicare payments totaling $33 million
during 2002–2007. Eighty percent of these payments went to one DMEPOS supplier, which
received $26.5 million during this time. The seven associated HHAs received Medicare
payments totaling $25 million during 2002–2007. Payments made to these HHAs ranged from
$152,000 to one HHA to $11.8 million to another.

Most Associated Suppliers Had Lost Billing Privileges by January 2005 and Accumulated
Their Own CNC Debt to Medicare, Although Most Associated Home Health Agencies
Received Payments as Recently as December 2007
As of December 2007, five of the eight associated DMEPOS suppliers had revoked billing
numbers, two had inactive Medicare billing numbers, and one was actively receiving Medicare
payments. Among the two DMEPOS suppliers with inactive billing numbers, one became
inactive in November 2003 and the other became inactive in January 2005. According to
information in the FID, the one remaining DMEPOS supplier actively receiving Medicare
payments in December 2007 was under investigation (as of May 2008) for providing false claims
to Medicare. At the time of our review, in addition to the CNC debt owed by the sample
DMEPOS suppliers, six of the eight associated DMEPOS suppliers had CNC debt totaling
$6.2 million. 22 Of the five associated DMEPOS suppliers that had their Medicare billing number
revoked, four were revoked for making a false statement or misrepresenting a material fact on
their enrollment application, in addition to committing other violations of the Medicare
participation standards.

In contrast, five of the seven associated HHAs received Medicare payments as recently as
December 2007. One of the associated HHAs last received Medicare payments in

22
  The six sample DMEPOS suppliers with which these DMEPOS suppliers were associated had CNC debt totaling
$7.3 million.

OEI-06-07-00080       Payments to Suppliers and HHAs Associated With Overpayments
Page 8 – Kerry Weems


November 2007, and the remaining HHA last received Medicare payments in November 2006.
According to the FID, none of the associated HHAs were under active investigation as of May
2008, and, because of the data limitations described above, OIG was not able to determine
whether CNC debt is owed by any of these associated HHAs.

 Table 1: Provider Type, Medicare Payments, Debt, and Billing Status for DMEPOS
 Suppliers and HHAs Associated With DMEPOS Suppliers With CNC Debt
 Sample                                              Home
 DMEPOS             Associated      DMEPOS           Health          Medicare Payments     Currently Not
 Suppliers           Business       Supplier         Agency          Received 2002–2007   Collectible Debta   Billing Statusb
 Supplier A
                        A1                               •               $3,836,339              #               Active
 Supplier B
                        B1               •                                $331,151           $326,387           Revoked
                        B2               •                                $791,386           $930,989           Revoked
                        B3                               •               $11,882,096            #                Active
                        B4                               •               $6,353,730             #                Active
                        B5                               •                $152,157              #                Active
                        B6                               •                $862,674              #               Inactive
                        B7                               •                $521,112              #                Active
 Supplier C
                        C1               •                               $2,236,664         $2,357,015          Revoked
 Supplier D
                        D1               •                                $434,380            $34,258           Revoked
 Supplier E
                        E1               •                               $2,541,744         $2,594,996          Revoked
                        E2                               •               $1,187,631             #                Active
 Supplier F
                        F1               •                                 $3,500             $48,342           Inactive
                        F2               •                               $26,521,875            $0               Active
                        F3               •                                $309,826               #              Inactive
                                                                                                               Active= 7
                                                                                                              Revoked= 5
         Totals                          8               7               $57,966,265        $6,291,987        Inactive= 3
Source: OIG analysis, 2008.
a=We did not have any CNC debt data for associated HHAs.
b=HHAs were considered “active” if they received Medicare payments in 2007.
#=Data not available.

Most Sample Suppliers Were Connected to Associated Businesses Through Shared
Owners/Managers
Analysis of public records revealed that 11 associated DMEPOS suppliers and HHAs were
connected to sample DMEPOS suppliers through shared ownership/management, e.g., the
owner/manager of the sample DMEPOS supplier also owned/managed the associated DMEPOS
supplier or HHA. (See Table 2 on the next page.) Five associated businesses were connected
through a family member, e.g., a mother owned the sample DMEPOS supplier and her son
managed a separate DMEPOS supplier. Some sample DMEPOS suppliers and associated
businesses also shared business or residential addresses (10) or business telephone numbers (4).


OEI-06-07-00080              Payments to Suppliers and HHAs Associated With Overpayments
Page 9 – Kerry Weems


In some cases, we identified a web of relationships among the individuals involved with the
sample DMEPOS suppliers and the associated businesses, as well as between the associated
businesses themselves. (See Appendix B for illustrations of such associations.) For example, a
relative (and cohabitant) of the owner of DMEPOS Supplier A owned and operated an HHA at
DMEPOS Supplier A’s address and used DMEPOS Supplier A’s business telephone number. In
another case, the principal owner of DMEPOS Supplier B also owned five other DMEPOS
suppliers or HHAs, four of which operated out of the same office building. In this same case, a
manager at one of the businesses also managed four associated businesses.

 Table 2: Nature of the Association Between 6 Sample DMEPOS Suppliers and
 15 Associated DMEPOS Suppliers or Home Health Agencies
 Sample
 DMEPOS                Associated     Owner/
 Suppliers              Business      Manager    Family Member     Address     Telephone Number
 Supplier A
                              A1                       •              •                •
 Supplier B
                              B1         •                            •
                              B2         •                            •
                              B3         •                            •
                              B4         •                            •
                              B5         •                            •
                              B6         •                            •
                              B7         •
 Supplier C
                              C1         •
 Supplier D
                              D1                       •              •
 Supplier E
                              E1                       •              •
                              E2                       •              •
 Supplier F
                              F1         •             •                               •
                              F2         •                                             •
                              F3         •                                             •

           Totals                        11            5             10               4
Source: OIG analysis, 2008.



Eleven Associated Supplier and Home Health Agency Enrollment Applications Did Not
Include the Name of at Least One Owner or Manager Listed in Accurint
To enroll in the Medicare program, providers and suppliers must complete an enrollment
application, which requires applicants to disclose the identity of any person or business “with
ownership, financial, or controlling interest in the company,” as well as all individuals who



OEI-06-07-00080               Payments to Suppliers and HHAs Associated With Overpayments
Page 10 – Kerry Weems


function in a management role. 23 If a DMEPOS supplier or an HHA submitted false or
misleading information with respect to ownership or control, its billing privileges would be
subject to revocation, among other administrative and criminal penalties. 24

Eleven of fifteen associated DMEPOS suppliers’ or HHAs’ enrollment applications did not
contain the name of at least one owner or manager listed in Accurint. Seven of the eleven were
HHAs and four were DMEPOS suppliers. Six of these eleven applications did not contain the
name of two or more owners or managers. Based on Accurint data, some of these owners or
managers who were not listed on enrollment applications appear to be relatives of the listed
owners or managers of sample DMEPOS suppliers.

CONCLUSION
Because of our limited sample size, we cannot conclude that the associations between DMEPOS
suppliers with debt owed to the Medicare program and other businesses that received Medicare
payments cited in this early alert memorandum also exist in the larger population. Also,
additional research and investigative work would be needed to confirm whether DMEPOS
suppliers and HHAs associated with our sample DMEPOS suppliers are involved in fraudulent
activities. Accordingly, our results should not be viewed as conclusive evidence of either
impropriety or illegal activity.

Nonetheless, our analysis shows associations between 6 sample DMEPOS suppliers with
Medicare debt totaling $7.3 million and 15 other DMEPOS suppliers and HHAs that received
Medicare payments totaling $58 million during 2002–2007. Although nearly all associated
DMEPOS suppliers had lost their billing privileges or have discontinued billing Medicare, five
of the seven associated HHAs received Medicare payments as recently as December 2007.
These results indicate that the associations between DMEPOS suppliers and HHAs may be less
frequently detected than those between DMEPOS suppliers alone. Our findings also show that
some enrollment applications for DMEPOS suppliers and HHAs associated with our sample
DMEPOS suppliers did not contain the names of all owners or managers. These results suggest
that individuals associated with Medicare debt could inappropriately receive Medicare payments
by omitting owner/manager information on their enrollment application and working through
other DMEPOS suppliers and HHAs.

Given these associations, CMS may deem it appropriate to conduct a similar review of DMEPOS
suppliers with CNC debt to identify associations with other suppliers or home health agencies
receiving Medicare payments. Specifically, CMS could compare its list of suppliers with CNC
debt against public records to determine if the owners or managers of these suppliers appear to own
or manage other suppliers or home health agencies. If these owner/manager associations are
identified, CMS could review the associated businesses’ enrollment applications to determine if
complete and accurate information was reported, and follow up on any apparent inconsistencies. 25
23
   Forms CMS-855S and CMS-855A. CMS requests this information pursuant to authority under
42 CFR § 420.206.
24
   42 CFR §§ 424.530(a)(4) and 424.535(a)(1) and (4).
25
   Pursuant to 42 CFR § 424.515(d), CMS has the authority to conduct such “off-cycle revalidations” to assess the
validity of enrollment information.

OEI-06-07-00080          Payments to Suppliers and HHAs Associated With Overpayments
Page 11 – Kerry Weems


If CMS confirms that ownership or management information has been misreported on enrollment
applications, it may consider whether denial or revocation of the DMEPOS supplier or HHA’s
enrollment is appropriate.

Because this initial review examined a small number of DMEPOS suppliers using a limited set
of issue questions, OIG intends to conduct follow-up work regarding the issues and
vulnerabilities raised in this memorandum.

This early alert memorandum is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this early alert memorandum,
please provide them within 60 days. Please refer to report number OEI-06-07-00080 in all
correspondence.




OEI-06-07-00080     Payments to Suppliers and HHAs Associated With Overpayments
Page 12 – Kerry Weems

      AA PP PP EE NN DD I I XX         ~~    AA
A P P E N D I X           A
Durable Medical Equipment Supplier and Home Health Agency Enrollment Primer
Suppliers of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS) and
home health agencies (HHA) go through similar, but distinct, processes to enroll in the Medicare
program. To enroll in Medicare, each must first obtain a National Provider Identifier (NPI)
number from the National Plan and Provider Enumeration System. This requires completing an
application with identifying information, such as the individual or business name, business
location, and any provider identification numbers held prior to the establishment of the NPI.
After receiving the NPI, the process for DMEPOS suppliers and HHAs differs.
DMEPOS suppliers must obtain a billing number from the National Supplier Clearinghouse
(NSC). NSC is responsible for issuing Medicare billing numbers to DMEPOS suppliers,
revoking billing numbers, and verifying compliance with the participation standards. To obtain a
billing number, the DMEPOS supplier must complete Form CMS-855S. This detailed form
requires the DMEPOS supplier to provide the following types of information:

     1. identifying information—business location, type of supplies sold, services offered,
        incorporation and accreditation information;

     2. adverse legal actions—convictions, exclusions, revocations, or suspensions;

     3. ownership interest and/or managing control information—all organizations or individuals
        with 5-percent ownership or more; managing control of the DMEPOS supplier; or a
        partnership interest, including the adverse legal history for these organizations or
        individuals with ownership interest or managing control; and

     4. listing of authorized or delegated officials. 26

In addition, the DMEPOS supplier must submit supporting documents along with Form CMS-
855S. Supporting documents include:

     1.   Federal/State/local professional and business licenses, certifications, or registrations;
     2.   liability insurance policy;
     3.   tax identification number;
     4.   completed form for electronic funds transfer;
     5.   NPI notification;
     6.   adverse legal action documentation;
     7.   bank statements waiving Medicare offsets as loan collateral; and
     8.   copy of delegated official’s Form W-2.

26
  Section 15 of Forms CMS-855S and CMS-855A. An “authorized” official is an appointed official to whom the
organization has granted the legal authority to enroll it in the Medicare program; make changes or updates to the
organization’s status in the Medicare program; and commit the organization to fully abide by the statutes,
regulations, and program instructions of the Medicare program. A “delegated” official is an official who is
delegated by an authorized official to report changes and updates to the DMEPOS supplier’s enrollment record.


OEI-06-07-00080       Payments to Suppliers and HHAs Associated With Overpayments
Page 13 – Kerry Weems


A P P E N D I X     A   ( C O N T I N U E D )


HHAs must also complete a Medicare enrollment application, using Form CMS-855A. This
form requires information nearly identical to the CMS-855S, discussed above. The form is
submitted to the Regional Home Health Intermediary (RHHI) for the jurisdiction in which the
HHA is located. Once the RHHI has determined that the application is acceptable, it notifies
both CMS and the State in which the HHA is located. The State then decides whether to conduct
a site visit to the HHA. Once the State determines that it will grant permission for the HHA to
participate in Medicare, it notifies CMS, and CMS makes the final decision to issue a Medicare
Part A billing number.




OEI-06-07-00080     Payments to Suppliers and HHAs Associated With Overpayments
Page 14 – Kerry Weems

A P P E N D I X         B

Diagrams Showing Relationships Between Sample Durable Medical Equipment Suppliers
and Their Associated Suppliers and Home Health Agencies
The diagrams on the following pages contain detailed information about sample suppliers of
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS) and associated
DMEPOS suppliers and home health agencies (HHA) described in the early alert memorandum.
We substituted fictitious names and addresses for real names and addresses in the diagrams. We
used consistent fictitious names and addresses across individuals and businesses. For example,
an individual named “John Doe” at one business is the same “John Doe” listed at another
business. The same is true for street addresses. In this way, it is possible to see the recurrence of
individuals and addresses across a network of associated businesses, despite the use of fictitious
names. Surnames were drawn from the U.S. Census Bureau’s list of most common names.
Information in oval shapes pertains to sample DMEPOS suppliers, including the DMEPOS
suppliers’ business name, address, and billing number, as well as its total amount of “currently
not collectible” (CNC) debt.

Sample DMEPOS suppliers “A,” “E,” and “B” were chosen to provide examples of small,
medium, and large networks of associated businesses, respectively. Their networks, while
unique, are good representations of the relationships seen in the other sample DMEPOS
suppliers’ networks. The rectangular shapes pertain to associated DMEPOS suppliers and/or
HHAs, including their total payment amounts during 2002–2007. For both the sample and
associated businesses, the diagrams identify individuals operating in ownership or managerial
roles. In each case, the diagrams identify the relationship between the sample DMEPOS supplier
and the associated business. The diagrams also denote whether enrollment applications for
associated businesses omitted the name of individuals listed as owners or managers in
Lexis/Nexis Accurint, a database containing public records.




OEI-06-07-00080      Payments to Suppliers and HHAs Associated With Overpayments
Page 15 – Kerry Weems

A P P E N D I X   B     ( C O N T I N U E D )



Sample DMEPOS Supplier “A”




OEI-06-07-00080   Payments to Suppliers and HHAs Associated With Overpayments
Page 16 – Kerry Weems

A P P E N D I X   B     ( C O N T I N U E D )



Sample DMEPOS Supplier “E”




OEI-06-07-00080   Payments to Suppliers and HHAs Associated With Overpayments
Page 17 – Kerry Weems

A P P E N D I X   B     ( C O N T I N U E D )



Sample DMEPOS Supplier “B”




OEI-06-07-00080   Payments to Suppliers and HHAs Associated With Overpayments
